MARCH 18, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




   NASA’S PROCESS FOR ACQUIRING INFORMATION
     TECHNOLOGY SECURITY ASSESSMENT AND
              MONITORING TOOLS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-006 (ASSIGNMENT NO. A-11-021-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ACES         Agency Consolidated End-user Services
APM          Application Portfolio Management
AVAR         Agency Vulnerability Assessment and Remediation
CIO          Chief Information Officer
CISO         Chief Information Security Officer
CPIC         Capital Planning and Investment Control
DCIO         Deputy Chief Information Officer
ELMT         Enterprise License Management Team
FISMA        Federal Information Security Management Act
FY           Fiscal Year
GRC          Governance, Risk, and Compliance
IT           Information Technology
ITSC         Information Technology Security Center
NPR          NASA Procedural Requirements
OCIO         Office of the Chief Information Officer
OCSO         Organizational Computer Security Official
OIG          Office of Inspector General
OMB          Office of Management and Budget
RMS          Risk Management System


                                                               REPORT NO. IG-13-006
MARCH 18, 2013




                                                                                              OVERVIEW

                NASA’S PROCESS FOR ACQUIRING INFORMATION
                  TECHNOLOGY SECURITY ASSESSMENT AND
                           MONITORING TOOLS
                                                                                                 The Issue

   NASA’s information technology (IT) infrastructure – a complex and diverse array of
   more than 500 computer systems with 140,000 components spread across numerous
   locations – plays a critical role in virtually every aspect of the Agency’s mission, from
   controlling spacecraft and processing scientific data to enabling NASA personnel to
   collaborate with colleagues around the world. At the same time, the Agency’s high
   profile and use of advanced technology coupled with the relatively large size of its
   networks makes it an attractive target to cyber attackers. To thwart such attacks, NASA
   must ensure that its IT systems and their associated components are regularly
   safeguarded, assessed, and monitored. To accomplish this task, the Office of the Chief
   Information Officer (OCIO) spends at least $58 million annually on IT security, a portion
   of which is used to acquire and manage security assessment and monitoring tools.

   Federal laws and regulations require Federal Government agencies to develop IT security
   policies and procedures, including Agency-wide IT security programs. In addition, the
   Information Technology Management Reform Act of 1996 (Clinger-Cohen) requires
   NASA and other agencies to identify opportunities to achieve efficiencies, improve
   integration and security, and ensure alignment of IT assets with the agency mission. The
   Office of Management and Budget (OMB) also requires agencies to coordinate their IT
   management efforts to eliminate duplicative IT investments, pool purchasing power
   across respective organizations, drive down costs, and improve IT services. 1 NASA’s
   Strategic Management Council directed the OCIO to implement an application portfolio
   management (APM) process with the goal of satisfying the greatest number of IT
   requirements with the fewest applications.2

   The NASA Office of Inspector General (OIG) initiated this audit to review NASA’s
   policies and procedures related to its acquisition of IT security assessment and
   monitoring tools. Because the Agency was unable to provide a complete inventory of the
   tools it purchased to manage nine IT security control areas, we distributed questionnaires
   to IT security personnel at NASA Headquarters and all Centers. The questionnaire

   1
       OMB Memorandum M-11-29, “Chief Information Officer Authorities,” August 8, 2011.
   2
       APM is a process that provides visibility of IT assets allowing for better decision-making, maintaining a
       user-friendly inventory of applications (including cost data), and identifying opportunities for reducing
       duplication among applications.



REPORT NO. IG-13-006
                                                                                      OVERVIEW



     response rate was 73 percent (111 responses out of 153 questionnaires). See Appendix A
     for details of the audit’s scope and methodology. See Appendix B for information about
     the questionnaire.

     Results

     NASA has not fully implemented a process for identifying its IT security assets, a
     necessity to meet federally mandated requirements and improve IT acquisition outcomes.
     Lack of such controls result in missed opportunities to capitalize on efficiencies and
     leverage purchasing power on critical IT security investments. NASA could use two
     internal management control processes ─ Capital Planning and Investment
     Control (CPIC) and APM ─ to improve visibility over purchases of IT security
     assessment and monitoring tools. The CPIC process (mandated by Clinger-Cohen) is
     intended to capture an agency’s major IT investments and achieve cost savings by
     identifying and eliminating redundant purchases. To facilitate CPIC requirements,
     NASA uses its IT Investment Management System (ProSight) to collect and aggregate IT
     investment cost data. However, we found that the ProSight data lacks sufficient detail to
     identify specific IT security tool requirements, associated maintenance costs, or tools
     planned for purchase, and therefore cannot be used to prioritize investments or identify
     potential cost savings. We learned that Marshall Space Flight Center (Marshall)
     modified ProSight to enable collection of more specific data on IT security assessment
     and monitoring tools and Marshall IT personnel developed a software application using a
     commercial off-the-shelf product to provide rapid analysis and review of this data. Both
     initiatives have enabled Marshall personnel to better document, assess, and prioritize
     Center-based IT investments.

     The APM management control process also developed to meet a Clinger-Cohen
     requirement) organizes IT applications into relevant portfolio categories to enable
     performance assessments of individual assets and the portfolio as a whole. Proper use of
     APM provides visibility of IT assets and enables more informed decision-making, a
     user-friendly inventory of applications (including cost data), and opportunities for
     reducing duplication among applications. In April 2007, NASA’s Strategic Management
     Council directed the Chief Information Officer (CIO) to implement the APM process
     with the goal of satisfying the greatest set of IT requirements using the fewest
     applications. However, according to Agency officials the APM process was discontinued
     in June 2011 due to restructuring within the OCIO and the inability to maintain an
     accurate inventory of application data.

     OCIO personnel interviewed as part of this audit stated they were in the process of
     gathering data on IT security assessment and monitoring tools used Agency-wide. In our
     judgment, NASA could improve visibility over its IT portfolio and identify opportunities
     for reducing duplication among all applications by re-instituting the APM process.

     In addition to the CPIC and APM processes, NASA’s Enterprise License Management
     Team (ELMT) is responsible for evaluating requirements to determine whether cost


ii                                                                        REPORT NO. IG-13-006
OVERVIEW



   savings can be achieved by consolidating purchases. According to Agency officials, the
   ELMT works with NASA’s OCIO and Office of Procurement to increase efficiency in
   purchasing and utilizing software. ELMT seeks to identify common software
   requirements and consolidate common software purchases throughout the Agency;
   conduct market research and business case development; secure appropriate volume
   discounts for applicable licenses; and distribute unused licenses by negotiating license
   transferability. To maximize its effectiveness, the ELMT requires comprehensive
   information on Agency IT technical and purchasing requirements. However, we found
   that such data is not readily available. Despite this limitation, ELMT officials said they
   have achieved $5.9 million in reduced software costs by leveraging NASA’s purchasing
   power and by eliminating redundant purchases and related maintenance agreements.

   Because NASA does not have a process that captures, consolidates, and assesses IT
   security tool requirements across the Agency, centralized purchases of tools to meet
   common IT security tool requirements do not regularly occur. For example, our survey
   showed that NASA spent $25.7 million on 242 separate purchases of IT security
   assessment and monitoring tools across nine control areas currently in use as of June
   2012 with little or no coordination between IT security officials. This inability to
   consolidate requirements and centralize purchases limits NASA’s efforts to gain
   efficiencies on critical IT investments.

   In addition, NASA’s decentralized organizational structure contributes to an ineffective
   IT investment management process. For example, we identified the following purchases
   across the Agency:

      ·   NASA OCIO spent $7.3 million to purchase and $1.8 million in annual
          maintenance costs for Agency-wide IT security assessment and monitoring tools;

      ·   NASA Centers spent $5.9 million to purchase and $2.2 million to annually
          maintain assessment and monitoring security tools that perform the same or
          similar IT security management functions; and

      ·   Individual organizations that supported project systems at 10 locations spent
          $6.7 million to purchase and $1.8 million in annual maintenance costs for
          additional IT security assessment and monitoring tools with similar functions.

   NASA’s lack of centralized and readily available information on current and planned IT
   security tool purchases diminishes opportunities to save money by consolidating similar
   requirements and purchases. In particular, NASA’s IT investment management and
   reporting process has not been tailored to capture the data Agency IT officials need to
   understand the products the Agency currently owns or plans to purchase. We believe
   significant opportunities exist for Agency officials to reduce unnecessary or redundant
   purchases. For example:

      ·   Vulnerability Management Tools. In 2008, the OCIO spent $364,973 to
          purchase McAfee Foundstone/McAfee Vulnerability Manager as the


REPORT NO. IG-13-006                                                                            iii
                                                                                                          OVERVIEW



                Agency-wide solution for vulnerability management on NASA’s 140,000 system
                components. The annual maintenance cost for this software exceeds $200,000.
                Two years later, NASA acquired vulnerability management services through the
                Consolidated End-user Services (ACES) contract, which duplicates vulnerability
                management services on 32,200 of NASA’s system components.

            ·   Governance, Risk, and Compliance (GRC) Tools. NASA acquired three
                different tools for managing GRC ─ Risk Management System (RMS),
                Information Technology Security Center (ITSC), and Rsam. These products were
                developed or purchased to meet Federal Information Security Management
                Act (FISMA) requirements to manage system security plans, track Plan of Action
                and Milestones, and monitor the security posture of NASA’s systems and
                associated components. The tools purchased performed the same or similar
                IT security management functions. The OCIO purchased RMS as an
                Agency-wide solution for $1.5 million with annual maintenance costs of
                $273,000. Marshall internally developed ITSC, which has annual maintenance
                costs of $361,000. Finally, four NASA locations made a combined purchase of
                Rsam at a total cost of $372,339, with annual maintenance costs of $80,412. The
                Rsam purchase occurred after the OCIO’s RMS purchase and both purchases
                were made after Marshall’s development of ITSC, which was available for use by
                all NASA organizations.

            ·   Log Event Management Tools. The OCIO, Chief Information Security
                Officers (CISOs), and Organizational Computer Security Officials (OCSOs)
                reported making 12 separate purchases of Splunk ─ a product used to log details
                of potential security threats on networks and systems ─ at a cost of $1.3 million
                with annual maintenance costs of $237,245. Even when organizations were
                located at the same Center, coordination and consolidation of purchases did not
                consistently occur. For example, two of these purchases were made separately by
                projects that resided at Goddard Space Flight Center.

            ·   Firewall/Boundary Protection Tools. The OCIO, CISOs, and OCSOs reported
                making 20 separate purchases of Juniper boundary protection tools at a total cost
                of $3.1 million with annual maintenance costs of $450,135.3

     We believe NASA should integrate the processes used by CPIC, APM, and ELMT to
     obtain more detailed information on IT security assessment and monitoring tool
     requirements across the Agency. We acknowledge that not all of the purchases we
     identified created duplication or could have been consolidated; however, in our judgment
     consolidating Agency requirements will allow NASA to more efficiently manage its
     widely distributed IT systems and the funds it allocates for IT security. NASA’s ability
     to identify and consolidate IT security tool requirements prior to making purchase


     3
         Firewall/boundary protection tools protect against external and internal intrusions of computer networks.



iv                                                                                         REPORT NO. IG-13-006
OVERVIEW



   decisions is imperative to achieve cost savings and standardize IT security tools
   Agency-wide.

   Management Action

   We recommended that the CIO modify the CPIC process to capture detailed IT security
   requirements and re-establish the APM process to enable greater visibility over existing
   inventory and planned acquisition of IT assessment and monitoring tools. Furthermore,
   NASA should consider routing the captured data acquired from the revised CPIC process
   to ELMT for review and potential consolidation of IT security tool purchases.

   In response to a draft of this report, the CIO concurred with our recommendations and
   stated that the OCIO plans to complete responsive actions by the end of fiscal
   year (FY) 2015. We consider the OCIO planned actions responsive and will close the
   recommendations upon verification that the actions are complete. The Agency’s
   comments in response to a draft of this report are reprinted in Appendix C.




REPORT NO. IG-13-006                                                                          v
MARCH 18, 2013




                                                         CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 2

   RESULTS
      NASA Needs to Improve Its Process for Acquiring Information
        Technology Security Assessment and Monitoring Tools _____ 3

   APPENDIX A
      Scope and Methodology _______________________________ 13
      Review of Internal Controls ____________________________ 14
      Prior Coverage ______________________________________ 15

   APPENDIX B
      Questionnaires ______________________________________ 16

   APPENDIX C
      Management Comments ______________________________ 17

   APPENDIX D
      Report Distribution___________________________________ 20




REPORT NO. IG-13-006
MARCH 18, 2013




                                                                     INTRODUCTION


Background

   NASA has a diverse information technology (IT) infrastructure that encompasses more
   than 500 computer systems with 140,000 components distributed across the country. The
   organizational structure is also complex, with individual NASA Centers and tens of
   thousands of contractors supporting hundreds of NASA projects, many using NASA’s
   computer networks to process, store, and transmit sensitive information. Concurrently,
   the large number of NASA systems and importance of the information on these systems
   makes NASA an attractive target to cyber attackers. To prevent and thwart such attacks,
   NASA must ensure that its IT systems and their associated components are safeguarded
   and regularly assessed and monitored. NASA uses a variety of IT security assessment
   and monitoring tools to respond to ever-evolving IT security threats. However, the
   decentralized nature of its organizational structure makes implementation of an effective
   IT security investment management process a continuous challenge.

   NASA’s Chief Information Officer (CIO) and the Deputy CIO for IT Security (DCIO)
   are responsible for developing IT security policies and procedures and for implementing
   an Agency-wide IT security program. The CIO and DCIO work from the
   Headquarters-based Office of the Chief Information Officer (OCIO). In addition, each
   Center has a CIO in charge of Center IT operations, and each Center CIO has a Chief
   Information Security Officer (CISO) responsible for IT security operations. In most
   cases, the Center CIO also assigns multiple Organizational Computer Security
   Officials (OCSOs) to the CISO to facilitate implementation and oversight of information
   security within their organizations. Further, NASA’s three Mission Directorates
   (Aeronautics Research, Science, and Human Exploration and Operations) have IT points
   of contact who coordinate with the OCIO. All of these individuals play a key role in
   ensuring the IT security of NASA’s networks and components and, therefore, are
   involved in determining what IT security assessment and monitoring tools the Agency
   needs.

   NASA’s CIO has statutory responsibility through the Information Technology
   Management Reform Act of 1996, also known as the Clinger-Cohen Act, to eliminate
   duplicative IT investments and applications. In addition, the Office of Management and
   Budget (OMB) requires that CIOs work with Chief Financial Officers and Chief
   Acquisition Officers to eliminate duplicative IT investments, pool purchasing power, and
   improve IT services. To help meet these objectives, NASA developed a Capital Planning
   and Investment Control (CPIC) process to achieve cost savings by eliminating redundant
   purchases. Further, NASA’s Strategic Management Council directed the NASA CIO to
   work with the Office of Program Analysis and Evaluation and the Office of the Chief
   Engineer to develop an Application Portfolio Management (APM) process that organizes



REPORT NO. IG-13-006                                                                           1
                                                                                 INTRODUCTION



    the Agency’s investments in IT tools and applications to ensure integration and eliminate
    unnecessary duplication. NASA Procedural Requirements (NPR) 2800.1B, “Managing
    Information Technology,” March 20, 2009, also requires an APM process. Finally,
    NASA’s Enterprise License Management Team (ELMT) evaluates software requirements
    to determine whether cost savings can be achieved by consolidating purchases.

Objectives

    The objective of this audit was to review NASA’s policies and procedures related to the
    acquisition of IT security assessment and monitoring tools. Details of the audit’s scope
    and methodology are in Appendix A.




2                                                                         REPORT NO. IG-13-006
RESULTS




                          NASA NEEDS TO IMPROVE ITS PROCESS FOR
                             ACQUIRING INFORMATION TECHNOLOGY
                                       SECURITY ASSESSMENT AND
                                             MONITORING TOOLS

   NASA’s IT investment management process does not fully capture, assess, and
   consolidate IT security tool requirements across the Agency and therefore misses
   opportunities to capitalize on efficiencies and leverage purchasing power on critical IT
   security investments. NASA officials reported spending $25.7 million on 242 separate
   purchases of IT security assessment and monitoring tools currently in use as of June
   2012. We found that officials made these purchases with little or no coordination and
   identified specific purchases that could have been consolidated to better leverage the
   Agency’s purchasing power. With improved awareness of its IT portfolio and visibility
   over its purchases, NASA could reduce its costs for IT security assessment and
   monitoring tools and potentially save millions of dollars annually in maintenance costs.

   NASA’s IT Investment Management and Reporting Process
   Could be Tailored to Capture and Review IT Security
   Investment Data

   Despite federally mandated requirements, NASA has not fully implemented a
   coordinated approach to identifying its IT requirements and improving IT acquisition
   outcomes. The Clinger-Cohen Act and OMB require agencies to review IT investments
   to identify opportunities to achieve efficiencies and pool their purchasing power across
   entire organizations to drive down costs and improve IT services. NASA created the
   ELMT in April 2008 to help the Agency determine whether it could achieve cost savings
   by consolidating IT purchases. In addition, the Agency has two internal management
   control processes ─ CPIC and APM ─ that are intended to identify NASA’s IT
   investments and eliminate redundant purchases to achieve cost savings. However, NASA
   has not used these processes to capture detailed IT security assessment and monitoring
   tool investment data. If NASA standardized the CPIC process and implemented the IT
   application data capture functionality for all users, the Agency could gain a better
   understanding of its IT portfolio and greater visibility over its purchases. Moreover, the
   resulting data could help the ELMT negotiate more cost-effective purchase agreements.

   Capital Planning and Investment Control. The Clinger-Cohen Act mandates that each
   Federal agency have a CPIC process to improve IT management through reductions in IT
   operations and maintenance costs and increased efficiency of operations. CPIC is a
   decision-making process for ensuring IT investments integrate strategic planning,
   budgeting, procurement, and management of IT in support of agency missions and
   business needs. NASA’s IT Investment Management System (ProSight), managed by the
   OCIO, collects and aggregates IT investment cost data as part of the CPIC process.



REPORT NO. IG-13-006                                                                            3
                                                                                                      RESULTS



    However, we found that the CPIC process is not consistently implemented at each Center
    and there is little collaboration between Centers.

    NASA’s CPIC process captures cost data on high value IT investments (major
    commodities) and generally focuses little on the details of low-value purchases
    (non-major commodities such as IT security tools). Further, the data collected in
    ProSight is not sufficiently detailed to identify specific IT security tool requirements,
    maintenance costs, or tools planned for purchase. Although the functionality exists to
    capture most IT application data, ProSight is used primarily to capture cost information
    on major commodities. As a result, aggregate data in ProSight does not provide enough
    detail to identify purchase and maintenance costs associated with IT security tools or
    information about planned IT security purchases.

    Although NASA is not using ProSight to collect data on all IT security purchases,
    officials at Marshall have modified the system to collect detailed IT application data at
    their location. Marshall personnel also developed a software application using a
    commercial off-the-shelf product to facilitate rapid analysis and review of IT investment
    data contained within ProSight. Marshall’s IT security staff have used the modified
    program to better document and catalog a detailed assessment of existing IT investments,
    establish an inventory of applications for internal and external stakeholders, and identify
    opportunities to reprioritize and rebalance IT assets and investments in response to
    changing needs and demand. Currently, only Marshall personnel use this capability
    although it is available to other Centers.

    Application Portfolio Management (APM). The primary objective of an APM process
    is to provide an overall view of existing IT application assets to improve the performance
    of individual assets within the portfolio as well as the performance of the portfolio as a
    whole. 4 In April 2007, NASA’s Strategic Management Council, consistent with Federal
    requirements established in the Clinger-Cohen Act, directed the NASA CIO to develop
    an APM process that organizes the Agency’s investments in IT tools and applications to
    ensure integration and eliminate unnecessary duplication. 5 However, use of APM was
    discontinued as part of an OCIO reorganization in June 2011 and the OCIO’s inability to
    maintain a reliable inventory of IT applications.

    NASA’s APM goals were to develop and maintain a user-friendly inventory of NASA
    applications with cost data; identify opportunities for reducing duplication among
    applications; reduce future duplication by providing increased visibility into how existing
    NASA applications could meet mission and business needs; and enable stakeholders to
    assess how well IT applications are performing. During the course of our review, OCIO
    personnel stated that they were gathering data on IT security assessment and monitoring

    4
        A comprehensive APM program would include all IT software assets owned by the Agency. These assets
        would include widely used software such as Microsoft’s SQL, Project, and SharePoint, Oracle
        applications, and internally developed software applications.
    5
        The Strategic Management Council, chaired by the NASA Administrator, serves as the Agency’s senior
        decision-making body for strategic planning. The NASA CIO is also a member of this Council.



4                                                                                    REPORT NO. IG-13-006
RESULTS



   tools used Agency-wide, but these efforts to date were incomplete. We believe NASA
   could improve visibility over its IT portfolio and identify opportunities for consolidating
   and reducing duplication among all applications by reestablishing an APM process.6

   Enterprise License Management Team (ELMT). NASA has previously consolidated
   software purchases to leverage its purchasing power. In 2008, the Agency established the
   ELMT at the NASA Shared Service Center to work with the OCIO and the Headquarters
   Office of Procurement to increase efficiency in purchasing and utilizing software
   applications. ELMT seeks to identify widespread common software requirements, reduce
   software and maintenance costs on initial purchase through consolidation, reduce the
   number of procurements, and encourage common software versions and configurations
   throughout the Agency. The team maintains an enterprise license database, and all
   NASA Centers are encouraged to consult with the ELMT to determine whether existing
   agreements can fulfill their software needs before making a new purchase. ELMT also
   conducts market research to reduce overall license and maintenance costs and to secure
   volume discounts for applicable licenses. ELMT also distributes unused licenses by
   negotiating license transferability into purchase agreements. Transferability is important
   for large organizations like NASA where similar software is used often across various
   programs and projects. For example, when a project ends and no longer needs specific
   software, transferability allows other units to take ownership without added purchase
   expenses.

   From fiscal year 2009 through 2011, ELMT was involved in the purchase of seven software
   applications that initially cost $27.3 million but were negotiated down to $19.1 million.
   After accounting for ELMT costs of $2.4 million, NASA achieved a net savings of
   $5.9 million through consolidations. Despite this success, we found that widespread use of
   ELMT was minimal due to the limited availability of IT procurement requirement and
   purchasing data in ProSight. Such information, if available and tailored appropriately, could
   allow ELMT to review portfolio management information and consolidate IT security
   assessment and monitoring tool requirements.

   NASA Could Leverage its Purchasing Power by Consolidating IT
   Security Assessment and Monitoring Tool Requirements and
   Purchases

   Because NASA’s IT investment process does not adequately track technology
   requirements and purchases, the Agency was unable to provide complete information in
   support of our review. Accordingly, to determine the IT security assessment and
   monitoring tools in use at NASA, we distributed questionnaires to the DCIO, 12 CISOs,
   and 140 OCSOs. The questionnaire asked these officials to identify the IT security
   assessment and monitoring tools they had procured to manage the following nine IT
   security control areas common across all information systems: Intrusion Detection;

   6
       To help NASA reestablish an APM process, we provided the OCIO with the data on IT security
       assessment and monitoring tools gathered during this audit.



REPORT NO. IG-13-006                                                                                5
                                                                                                 RESULTS



    Network Traffic Monitoring; Log Event Management; Malware and Antivirus Protection;
    Vulnerability Management; Patch Management; Firewall/Boundary Protection;
    Configuration Management; and Governance, Risk, and Compliance (GRC).

    Based on questionnaire responses received through June 2012 (73 percent), we found that
    NASA spent $25.7 million on IT security assessment and monitoring tools across all
    levels of the organization. Our results indicated that the OCIO, CISOs, and OCSOs at
    NASA locations, Mission Directorates, programs, and projects made 242 separate
    purchases of IT security assessment and monitoring tools at a cost of $19.9 million and
    an additional $5.8 million in annual maintenance costs. Specifically, the OCIO spent
    $7.3 million to purchase and $1.8 million annually to maintain IT security assessment
    and monitoring tools while CISOs similarly spent $5.9 million to purchase and
    $2.2 million annually to maintain IT security assessment and monitoring tools. OCSOs
    supporting project systems spent $6.7 million to purchase and $1.8 million annually to
    maintain IT security assessment and monitoring tools. Table 1 shows the combined
    OCIO, CISO, and OCSO IT security tool purchases and expenditures within the nine IT
    security control areas.

                  Table 1. NASA Security Tool Purchases and Expenditures
                                   Number of                         Annual
            IT Security                             Purchase
                                    Separate                        Maintenance         Totals
           Control Area                              Costs
                                   Purchases                          Costs

      Intrusion Detection              23          $   3,033,215      $    713,926    $ 3,747,141

      Network Traffic
                                       34              2,869,551           541,707       3,411,258
      Monitoring
      Log Event Management             41              4,514,070           834,939       5,349,009
      Malware and Antivirus
                                       32                541,929           221,599         763,528
      Protection
      Vulnerability
                                       32              1,659,297           636,562       2,295,859
      Management
      Patch Management                 11              1,324,467          1,121,812      2,446,279
      Firewall/Boundary
                                       43              3,650,492           732,298       4,382,790
      Protection
      Configuration
                                       17                442,276           266,727         709,003
      Management
      Governance, Risk, and
                                       9               1,899,645           734,012       2,633,657
      Compliance (GRC)
        Totals                         242         $ 19,934,942        $ 5,803,582    $ 25,738,524
    Source: Based on OIG analysis of NASA reponses to survey questionnaire.

    We determined that in multiple instances, the OCIO, CISOs, and OCSOs purchased the
    same or similar tools for the nine IT security control areas, thereby indicating potential
    missed opportunities for consolidation.


6                                                                                REPORT NO. IG-13-006
RESULTS



      Intrusion Detection Tools. Intrusion detection tools monitor networks or systems
      for malicious activities or policy violations. According to our survey, NASA made
      23 separate purchases of 20 different intrusion detection tools at a cost of $3 million
      with annual maintenance costs of $713,926. A NASA CISO and OCSO made two
      separate purchases of the Basic Analysis and Security Engine Intrusion Detection
      Tools at a cost of $85,000 and annual maintenance costs of $15,000. Another CISO
      and OCSO made two separate purchases of the Forensic Access Data and Storage
      Intrusion Detection Tools at a cost of $318,000 and annual maintenance costs of
      $29,000. Additionally, the OCIO, CISOs, and OCSOs made 19 additional purchases
      of 18 other intrusion detection tools at a cost of $2.6 million with annual maintenance
      costs of $669,926.

      Network Traffic Monitoring Tools. Network traffic monitoring examines network
      performance and user behavior to help security program managers identify areas in
      need of improvement. This information can be correlated with other sources of
      information to create a comprehensive security picture. According to our survey,
      NASA made 34 purchases of 24 different tools to monitor network traffic at a cost of
      $2.9 million with annual maintenance costs of $541,707. One of the tools purchased
      was Q-Radar, for which the OCIO and IT security personnel at three locations made
      four separate purchases for $1.2 million and annual maintenance costs of $139,605.
      In addition, IT security personnel at four locations made six purchases of Solar Winds
      tools for $99,500, with annual maintenance costs of $59,559. The remaining
      24 purchases involved 22 individual tools to perform network traffic monitoring at a
      cost of $1.6 million with annual maintenance costs of $344,563.

      Log and Event Management Tools. Log and event management tools alert system
      administrators to potential security or other events on Agency networks and systems.
      Third party assessments reported that NASA systems were lacking sufficient log
      management capability in the past and that system administrators needed to better
      monitor and maintain logs related to alerts generated by potential security events.
      NASA made 41 separate purchases of 20 different log and event management tools at
      a cost of $4.5 million with annual maintenance costs of $834,939. For example, the
      OCIO, CISOs, and OCSOs made 12 separate purchases of Splunk to document what
      events had occurred on a system and identify potential security threats at a cost of
      $1.3 million and annual maintenance costs of $237,245. Two of the 12 purchases
      were made by large projects located at the same NASA Center, and Agency officials
      told us there was no coordination or consolidation of these purchases. Additionally,
      NASA CISOs and OCSOs made 8 separate purchases of another product called
      Net IQ for $1 million and annual maintenance costs of $159,384. Agency personnel
      made 21 additional purchases of 18 other log event and management tools at a cost of
      $2.2 million with annual maintenance costs of $438,310.

      Malware and Antivirus Tools. Malware and Antivirus Tools protect against
      software installed without the users knowledge designed to harm the computer or
      steal information. The requirement for antivirus and malware protection is common
      to all NASA information systems. We identified 32 separate purchases of malware


REPORT NO. IG-13-006                                                                            7
                                                                                   RESULTS



    and antivirus tools at a cost of $541,929 with annual maintenance costs of $221,559.
    For example, NASA CISOs and OCSOs made 19 separate purchases of Symantec
    Malware and Antivirus protection tools at a cost of $486,703 and annual maintenance
    costs of $129,128. In addition, in December 2010, NASA awarded the Agency
    Consolidated End-user Services (ACES) contract that includes Symantec Antivirus
    tools for all ACES end-users.

    Vulnerability Management Tools. NASA employs vulnerability scanning tools to
    scan IT assets at every NASA location to detect and mitigate vulnerabilities.
    According to our survey, NASA made 32 separate purchases of vulnerability
    management tools at a cost of $1.7 million with annual maintenance costs of
    $636,562. To centrally manage vulnerability mitigation efforts, in 2005 the CIO
    launched the Agency Vulnerability Assessment and Remediation (AVAR) program
    and purchased McAfee Foundstone/McAfee Vulnerability Manager as the
    Agency-wide solution at a cost of $364,973 and with annual maintenance costs of
    $234,057. While NASA uses McAfee Vulnerability Manager to scan its
    approximately 140,000 system components, such scanning is also being performed
    under the Agency’s ACES contract.

    While the ACES contract was developed to consolidate NASA’s IT services, we
    identified duplication of efforts in its vulnerability management services.
    Specifically, ACES uses Retina Network Security Scanner to perform scans on
    approximately 32,200 of NASA’s 140,000 system components. While the contractor
    is performing scans and mitigating findings on those components, NASA’s AVAR is
    also performing vulnerability scans on those same 32,200 system components. The
    OCIO could not provide cost data associated with the ACES vulnerability
    management services. We also identified 30 additional purchases of vulnerability
    management tools, which included 11 purchases of NESSUS, four purchases of IBM
    App Scan, two purchases of HailStorm WebApp Scanner, and 13 purchases of
    various other tools at a cost of $1.4 million and with annual maintenance costs of
    $402,505.

    Patch Management Tools. Patch management is the process for identifying,
    acquiring, installing, and verifying patches for IT products and systems to correct
    software security and functionality problems. To implement patch management,
    NASA made 11 purchases of 9 different tools for $1.3 million with annual
    maintenance costs of $1.1 million. According to our survey, the NASA OCIO
    purchased KACE for $1.2 million and annual maintenance costs of $424,000. At the
    same time, one CISO and seven OCSOs purchased eight different tools to perform
    patch management functions for $98,467 with annual maintenance cost of $697,812.

    Firewall/Boundary Protection Tools. Firewall/boundary protection tools protect
    against internal or external intrusion of computer networks and are ubiquitous
    throughout NASA’s networks to monitor and control access. According to our
    survey, NASA made 43 separate purchases of firewall/boundary protection tools at a
    cost of $3.7 million with annual maintenance costs of $732,298. Specifically, the


8                                                                    REPORT NO. IG-13-006
RESULTS



      OCIO, CISOs, and OCSOs made 20 separate purchases of Juniper boundary
      protection tools at a cost of $3.1 million and annual maintenance costs of $450,135.
      In addition, the CIO, OCSOs, and CISOs made 19 separate purchases of
      CISCO/Check Point boundary protection devices at a cost of $577,000 with annual
      maintenance costs of $353,000. Agency personnel also purchased four additional
      firewall/boundary protection tools at a cost of $50,460.

      Configuration Management Tools. Configuration management is a collection of
      activities that seeks to establish and maintain the integrity of IT products and systems
      through control of the processes for initializing, changing, and monitoring the
      configurations of those products and systems throughout the system development life
      cycle. According to our survey, NASA made 17 purchases of 15 different tools for
      configuration management of NASA systems at an initial cost of $442,276 with
      annual maintenance costs of $266,727.

      Governance, Risk, and Compliance (GRC) Tools. FISMA mandates common
      GRC requirements to manage system security plans, track the status and corrective
      actions for deficiencies identified on NASA systems, and monitor the security posture
      of its systems and associated components. NASA made 14 purchases of 12 different
      tools to perform GRC activities at NASA locations at a cost of $1.7 million and
      annual maintenance costs of $704,012. The following are four examples of GRC
      expenditures at NASA:

          ·   ITSC, a software suite that Marshall developed internally in 2003 and has annual
              maintenance costs of $361,000. Although this product is available to all NASA
              locations, only Marshall currently uses it.

          ·   RMS from SecureInfo cost NASA $1.5 million and has annual maintenance
              costs of $273,000. The OCIO purchased RMS in July 2005 as the Agency-wide
              risk management software solution. Prior OIG reviews have noted that RMS was
              not user-friendly and contained incomplete information; therefore, the Agency is
              evaluating other solutions as potential replacements.

          ·   Rsam was purchased by four Centers in August 2008 to meet many of the same
              FISMA requirements as the RMS and ITSC tools. Rsam cost $372,339 with
              annual maintenance costs of $80,412. Despite knowledge that RMS was the
              required Agency-wide solution, Centers purchased Rsam to help satisfy their
              FISMA requirements.

          ·   The Information Technology Security Data Base was deployed in June 2000 at
              the Jet Propulsion Laboratory to meet many of the same FISMA IT security
              requirements that similar tools are meeting at other Centers.

   Although there are information systems at NASA with unique security requirements, the
   nine control areas can be assessed and monitored using a common set of tools. We
   believe that uncoordinated purchases causes NASA to spend more than necessary on IT


REPORT NO. IG-13-006                                                                             9
                                                                                          RESULTS



     security software because many of the software requirements are procured individually
     each year versus leveraging economy of scale purchases through an enterprise purchase
     agreement. Such purchases by individual NASA entities may also result in redundant
     efforts by procurement and contract management staff and result in higher per license
     cost and increased maintenance due to limited quantity procurements. Furthermore,
     maintenance costs are often based on vendor resources used in maintaining individual
     maintenance agreements and are typically calculated as a percentage of the initial
     software purchase costs. By consolidating its requirements, reducing separate purchases,
     and negotiating volume discounts, NASA could have further reduced the associated
     annual maintenance costs.

     We acknowledge that not all of the purchases identified in the nine IT security control
     areas created duplication or could have been consolidated. However, we believe NASA
     could more efficiently manage its widely distributed IT security systems by consolidating
     requirements. NASA IT security, procurement, and capital planning officials
     acknowledge overlap in the purchase of IT security tools across the Agency and agree
     that NASA could benefit by consolidating efforts to leverage its buying power.

Conclusion

     To achieve cost savings and standardize IT resources across the Agency, NASA needs to
     consolidate IT security assessment and monitoring tool requirements prior to making
     purchasing decisions. Full implementation of two current NASA systems could assist in
     the effort to make more effective use of IT security funds by: 1) expanding the CPIC
     process to capture detailed IT security application and cost data; and 2) revitalizing the
     APM program to gain a better understanding of the Agency’s IT security assessment and
     monitoring tool environment. Using this data, the ELMT could identify IT security
     assessment and monitoring tools for consolidation. Our survey found that NASA’s
     DCIO, CISOs, and OCSOs spent $25.7 million for tools that are either the same or
     performed similar IT security management functions as other available software. We
     believe NASA could have reduced its purchase costs and the associated annual
     maintenance costs with a more effective IT investment management process that
     captures, consolidates, and assesses IT security tool requirements across the Agency.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To improve NASA’s process for acquiring Agency-wide IT security assessment and
monitoring tools, we made the following recommendations to the Chief Information Officer:

Recommendation 1. Ensure that IT application data capture is available to all NASA
IT Investment Management System (ProSight) users.

     Management’s Response. The CIO concurred with our recommendation, stating that the
     OCIO is in the process of migrating from ProSight to a new CPIC management tool,



10                                                                         REPORT NO. IG-13-006
RESULTS



   eCPIC, and will utilize the Federal eCPIC Steering Committee to leverage ideas
   regarding identifying and collecting data associated with investments and for tracking
   and reducing spending in commodity IT areas, including for security tools. The OCIO
   plans to complete the migration to eCPIC in April 2013, and will develop a plan to
   implement the data collection process as part of the CPIC meeting scheduled for October
   2013 and implement that plan by the end of FY 2014. In addition, work is underway to
   define the current and target state of IT security tools and to develop a transition plan to
   achieve the target state. This effort should be complete by the end of FY 2014.

   Evaluation of Management’s Response. Management’s comments are responsive;
   therefore, the recommendation is resolved and will be closed upon verification and
   completion of the proposed corrective actions.

Recommendation 2. Require, as part of the CPIC process, that all Agency activities
identify their IT security assessment and monitoring tools and associated purchase and
maintenance costs in ProSight.

   Management’s Response. The CIO concurred with our recommendation stating that as
   part of a new OMB initiative, PortfolioStat, the OCIO is assessing data requirements to
   support effective reporting and decision making. PortfolioStat includes an assessment of
   the IT security tools budget and whether opportunities exist for consolidation to eliminate
   duplication. The OCIO has requested data from the Centers and Mission Directorates
   and also plans to use data provided by the OIG during this review. Furthermore, the
   OCIO is working with the Chief Financial Officer to determine if changes can be made to
   the Agency’s financial system that will provide enhanced granularity into IT spending
   throughout the Agency and therefore enable decision makers to identify potential
   investment/portfolio areas for consolidation. The OCIO is planning to complete these
   actions by the end of FY 2015, assuming adequate resources are available to make any
   necessary modifications to the financial system.

   Evaluation of Management’s Response. Management’s comments are responsive;
   therefore, the recommendation is resolved and will be closed upon verification and
   completion of the proposed corrective actions.

Recommendation 3. Ensure that the captured data is routed through the ELMT for review
and consolidation of IT security assessment and monitoring tools.

   Management’s Response. The CIO concurred with our recommendation stating that the
   OCIO will establish accounts for the ELMT team in eCPIC in April 2013 when migration
   and training activities are complete. The OCIO will also recommend that the ELMT be
   represented on the CPIC Working Group and participate in working sessions to improve
   CPIC activities.

   Evaluation of Management’s Response. Management’s comments are responsive;
   therefore, the recommendation is resolved and will be closed upon verification and
   completion of the proposed corrective actions.


REPORT NO. IG-13-006                                                                              11
                                                                                          RESULTS



Recommendation 4. Once the above recommendations are implemented, determine if other
non-major commodity IT application data could be captured using the same process in an
effort to reestablish an overall APM program.

     Management’s Response. The CIO concurred with our recommendation, stating OMB’s
     PortfolioStat process is providing a framework to collect data on high priority IT
     spending areas. In the interim, the OCIO will continue to implement the annual
     PortfolioStat processes and prioritize the highest value areas for consolidation to
     eliminate duplication. The OCIO will also continue to identify candidates for
     applications license consolidation in the Agency. The OCIO is planning to complete this
     action by the end of FY 2015.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.




12                                                                        REPORT NO. IG-13-006
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

   We performed this audit from October 2011 through January 2013 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   To assess NASA’s ability to gather and consolidate requirements for IT security
   assessment and monitoring tools, we analyzed data obtained from the DCIO, CISOs, and
   OCSOs though questionnaires and interviews. We also interviewed personnel from
   ACES, AVAR, ELMT, and procurement across all NASA Centers about IT security
   assessment and monitoring tools and acquisition processes, CPIC, and APM.

   The questionnaires focused on tools purchased to manage nine IT security control areas –
   intrusion detection, network traffic monitoring, log event management, malware and
   antivirus, vulnerability management, patch management, firewall/boundary protection,
   configuration management, and GRC. We requested information for purchases and the
   associated maintenance costs for tools currently in use.

   We used three different questionnaires, with the questionnaire sent to the DCIO asking
   specifically about tools purchased for an Agency-wide solution and additional questions
   for the CISOs and OCSOs to identify the systems for which they were responsible. We
   distributed 12 CISO questionnaires and 140 OCSO questionnaires, which included the
   responsible IT security official for most of the Agency’s computer systems as identified
   in the system inventory. We distributed the questionnaires in October 2011. We
   received responses from the DCIO, the CISOs, and 98 of the OCSOs by June 2012 –
   overall, a 73 percent response rate. Our analysis of questionnaire responses identified
   what IT security assessment and monitoring tools the DCIO, CISOs, and OCSOs
   purchased and the number of purchases that were made in the nine IT security control
   areas.




REPORT NO. IG-13-006                                                                           13
                                                                                      APPENDIX A



     Federal Laws, Regulations, Policies, and Guidance. We reviewed the following in the
     course of our audit work:

        ·   Information Technology Management Reform Act of 1996 (Clinger-Cohen Act)

        ·   Executive Order 13589, “Promoting Efficient Spending,” November 9, 2011

        ·   OMB Memorandum M-11-29, “Chief Information Officer Authorities,” August 8,
            2011

        ·   OMB Memorandum M-12-10, “Implementing PortfolioStat,” March 30, 2012

        ·   OMB Memorandum M-12-12, “Promoting Efficient Spending to Support Agency
            Operations,” May 11, 2012

        ·   NASA Policy Directive (NPD) 1000.0A, “NASA Governance and Strategic
            Management Handbook,” August 13, 2008

        ·   NPR 2800.1B, “Managing Information Technology,” March 20, 2009

        ·   NPR 2810.1A, “Security of Information Technology (Revalidated with Change 1,
            dated May 19, 2011)”

        ·   NPR 7120.7, “NASA Information Technology and Institutional Infrastructure
            Program and Project Manager Requirements,” November 3, 2008

        ·   NASA OCIO Information Resources Management Strategic Plan, June 2011

        ·   NASA Memorandum, “Solutions for Enterprise-Wide Procurement (SEWP)
            Contract,” August 15, 2011

        ·   NASA Memorandum, “FY09 Acquisition of IT Products and Service Guidance,”
            March 27, 2008
     Use of Computer-Processed Data. We did not use computer-processed data in the
     performance of this audit. However, we did obtain information from the OCIO that was
     a result of data manually entered into a spreadsheet to report NASA’s System Inventory
     and individuals (CISOs and OCSOs) responsible for the security of the systems included
     in the inventory. This information was verified during the distribution of questionnaires
     to all CISOs and OCSOs.

Review of Internal Controls

     We examined internal controls that would allow NASA to acquire IT security assessment
     and monitoring tools, achieve efficiencies, improve integration and security, and ensure
     alignment of IT with mission. We discussed the control weaknesses identified in the
     Results section of this report. Our recommendations, if implemented, will improve those
     identified weaknesses.


14                                                                         REPORT NO. IG-13-006
APPENDIX A



Prior Coverage

   During the past five years, the NASA Office of Inspector General (OIG) issued one
   report of particular relevance to the subject of this report: “Final Memorandum on
   Review of NASA’s Consolidation of Information Technology Purchases under the
   Outsourcing Desktop Initiative” (IG-09-001-R, November 6, 2008). Unrestricted reports
   can be accessed over the Internet at http://oig.nasa.gov/audits/reports/FY13/index.html.




REPORT NO. IG-13-006                                                                          15
                                                                                    APPENDIX B




                                                                   QUESTIONNAIRES

     To collect information on IT security assessment and monitoring tools in use across the
     Agency, we developed three different questionnaires: one for the DCIO, which focused
     on tools purchased as Agency-wide solutions; one for CISOs; and one for OCSOs, which
     included a section to identify the systems for which they were responsible.

     Between October 19 and December 6, 2011, we distributed the questionnaires to the
     DCIO, 12 CISOs, and 140 OCSOs. We received the DCIO’s response January 4, 2012.
     We received responses from all 12 CISOs by June 25, 2012. The last of the 98 responses
     from OCSOs was received January 25, 2012. Overall, the response rate was 73 percent
     (153 distributed and 111 returned).

     Table 2 below summarizes the survey results.

                         Table 2. Summary of Responses to Questionnaires
                                       Return           Purchase Costs          Annual
      Questionnaire Recipient           Rate              of IT Tools      Maintenance Costs
       DCIO                         100% (1 of 1)        $ 7,340,973          $1,762,057
       CISOs                        100% (12 of 12)        5,882,553           2,278,892
       OCSOs                        70% (98 of 140)        6,711,416           1,762,633
        Total                       73% (111 of 153)     $19,934,942          $5,803,582




16                                                                       REPORT NO. IG-13-006
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-13-006                         17
              APPENDIX C




18   REPORT NO. IG-13-006
APPENDIX C




REPORT NO. IG-13-006   19
                                                                                 APPENDIX D




                                                          REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator for Aeronautics Research
     Associate administrator for Science
     Associate Administrator for Human Exploration and Operations
     Chief Information Officer
     Associate Chief Information Officer for Capital Planning and Governance
     Deputy Chief Information Officer for Information Technology Security
     Chief Acquisition Officer/Assistant Administrator for Procurement
     NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




20                                                                      REPORT NO. IG-13-006
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Vincent Small, Project Manager
   Bret Skalsky, Team Lead
   Bessie Cox, Auditor
   Chris Reeves, Information Technology Specialist
   Mike Beims, Computer Engineer




REPORT NO. IG-13-006                                        21
                                                                                      MARCH 18, 2013
                                                                        REPORT No. IG-13-006




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
